HEARING BEFORE THE U.S. HOUSE OF REPRESENTATIVES

          COMMITTEE ON WAYS AND MEANS

            SUBCOMMITTEE ON OVERSIGHT




                      May 13, 2003
     2:00 p.m. 1100 Longworth House Office Building
                     Washington, DC



                   Pamela J. Gardiner
                Acting Inspector General
    Treasury Inspector General for Tax Administration
   Testimony of Pamela J. Gardiner, Acting Inspector General for Tax Administration
      Before the U.S. House of Representatives Committee on Ways and Means
                            Subcommittee on Oversight
                                    May 13, 2003

Mr. Chairman, Ranking Member Pomeroy, and Members of the Subcommittee, I
appreciate the opportunity to appear before you today to discuss the IRS’ progress
regarding the use of collection agencies and my office’s work in assessing this
progress.

The use of collection agencies to assist in the collection of federal tax debt is not a new
concept. In 1996 the IRS piloted the use of collection agencies, and after a detailed
internal evaluation, concluded that their use was not economically viable. The IRS’
current approach, however, differs significantly from the prior methodology. Most
importantly, in 1996 the collection companies were compensated with monies from the
IRS’ appropriated funds. In contrast, as part of its 2004 budget submission, the IRS has
requested authority to fund the use of collection companies directly from the revenues
collected by those companies.

The IRS plans to eventually place 2.6 million cases annually with collection companies.
Treasury projects that this initiative will produce revenue of as much as $1 billion
through 2013. While this amount is significant, it represents a small portion of the $280
billion in accounts receivable that were due at the end of FY 2002.

In a recent audit report, TIGTA identified that the IRS’ preliminary planning efforts for
using collection companies were extensive. The IRS carefully evaluated similar
programs at other federal and state government entities, such as the U.S. Department
of Education and the State of Virginia, contacted subject matter experts regarding
industry best practices, issued a draft Request for Quotation on February 14, 2003, and
subsequently held an informational conference to solicit feedback and answer questions
from potential contractors regarding the IRS’ requirements.

Although these efforts were good, TIGTA identified several areas where IRS planning
could be enhanced:
    • Additional focus on the development of management information to improve the
       IRS’ ability to oversee the program.
    • Better development of detailed requirements to help ensure taxpayer rights and
       privacy are protected.
    • A more measured initial release of cases to collection companies to provide IRS
       more data to determine staffing needed to effectively support this initiative.

IRS management agreed with all of these recommendations and indicated that they
have already implemented corrective actions to address the findings in our report.

One issue warranting future attention, which is critical to the success of the program, is
the process of selecting which cases are given to the contractors. In the 1996 IRS pilot,
most of the cases delivered to the collection agencies were small dollar delinquencies
normally collected by the IRS at a minimal cost. However, the collection case selection
                                                                                           2
process has changed over time at the IRS. In fact, the IRS has recently changed the
methods used to determine which cases it works internally. These changes will affect
the types of cases that the contractors receive, but the IRS has not yet officially finalized
the method for selecting cases for this new initiative.

We are also concerned generally with IRS’ contract administration and oversight of
contractors. TIGTA has issued several audit reports and conducted investigations of
alleged criminal or civil misconduct in the procurement area in the last three years,
finding such things as:
• Employees at one lockbox bank lost or destroyed more than 70,000 taxpayer
    remittances worth more than $1.2 billion, and another 71 investigations identified 14
    instances of thefts of receipts valued at close to $2 million.
• An IRS employee ensured certain companies received contracts in exchange for
    illegal payments.
• A contractor was not in compliance with the terms of its contract resulting in
    increased security risk at some IRS locations.

The IRS’ proposal to contract out the collection of delinquent accounts to private
collection companies has the potential to recover a significant amount of IRS accounts
receivable. Nonetheless, we will want to watch the effort closely to ensure the dual
risks of protecting taxpayer rights and effective contract administration are addressed.
This concludes my statement.




                                                                                            3
For further information on the Treasury Inspector General for Tax Administration’s
(TIGTA) work related to the use of debt collection agencies, see:

Management Advisory Report:
Additional Options to Collect Tax Debts Need To Be Explored
July 2001
Reference Number: 2001-40-122
http://www.treas.gov/tigta/auditreports/2001reports/200140122fr.pdf

Efforts to Develop a Successful Collection Contract Support
Program Could Be Enhanced
March 2003
Reference Number: 2003-30-075
http://web.tigta.treas.gov/aci-ia/03-AuditProgram/03-
AuditReports/FY03AuditReports/06Mar03/200330075fr.html




                                                                                     4
